'#■*

I

Custard v. Crow, U.S.S.Ct. #

/Petitioners' APPENDIX-A
*

UNITED STATES COURT OF APPEALS

FILED
-"United States Court of Appeals
Tenth Circuit
March 1,2021

FOR THE TENTH CIRCUIT
t

ROBERT ALLEN CUSTARD,

Christopher M. Wolpert
Clerk of Court

Petitioner - Appellant,
No. 20-6092
(D.C. No. 5:19-CV-00540-J)
(W.D. Okla.)

v.
SCOTT CROW,

\

Respondent - Appellee^
ORDER AND JUDGMENT*
Before PHILLIPS, McHUGH, and'CARSON, Circuit Judges.

V

Robert Custard, an Oklahoma prisoner, appeals the district court’s dismissal of
his petition for habeas corpus unde:-* 28 U.S.C. § 2241. Exercising jurisdiction under
28 U.S.C. § 1291, we affirm.
¥

BACKGROUND

\

Custard is serving a 30-year prison sentence for a 1993 felony conviction in
*

i

Stephens County, Oklahoma, for knowingly concealing stolen property after a felony

^y

* After examining the briefs and appellate record, this panel has determined
unanimously that oral argument' w ?uld not materially assist in the determination of
this appeal. See Fed. R. App.'P. 3'1(a)(2); 10th:pir. R. 34.1(G). The case is therefore
ordered submitted without oral; argument. This^der and judgment is not binding
precedent, except under the dobtrmes of law of:the,case, res judicata, and collateral
estoppel. It may be cited, howeves, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

r

*
¥

‘■H-

s

conviction. Before October 2017, Custard was in federal prison for a separate 1993
felony conviction in the District o£ Colorado for kidnapping and possession of a
firearm after a felony conviction. Originally, Custard’s federal sentence was 360
months’ imprisonment. But, following'the Supreme Court’s decision in Johnson v.
•■i

’

»,

United States, 576 U.S. 591, 606 (2015), the federal court resentenced Custard in
4

..

?

October 2017 to a shorter term of imprisonment 137 months. Based on this new
sentence, Custard had overserved his federal sentence by thirteen or fourteen years. i
Custard began serving his Oklahoma sentence, which the state court had made
consecutive to his federal sentence, after his release from federal custody. Custard
filed a § 2241 petition asserting he is constitutionally entitled to, credit toward his
Oklahoma sentence for the time he overserved, on his federal sentence. The district
court dismissed the petition and granted a certificate of appealability. Custard now
appeals.

t
t

\

DISCUSSION
Because he proceeds pro se, we construe Custard’s arguments liberally, but we
“cannot take on the responsibility cf serving as the litigant’s attorney in constructing
arguments and searching the record.” Garrett v, Selby Connor Maddux & Janer,
425 F.3d 836, 840 (10th Cir. 2005$. We review the district court’s dismissal of
.

• i, ^

Custard’s § 2241 petition de novo. See Abernathy
v. Wandes, 713 F.3d 538, 544
r>*
(10th Cir. 2013).

:•

%
t

The parties differ as to the.sxact date Custard’s revised federal sentence
ended, but their disagreement is nett material .tp.tKis appeal.
i

2
r
i

*

• *
.v '

..

I

-4*.

This court has not squarely addressed the question Custard’s petition presents.
We have held a state prisoner is constitutionally entitled to credit against a
consecutive state sentence for timei served on a state sentence later determined to be
.

.

•

..••

•*

t-

erroneous. See Goodwin v. Page, 418 F.2d 867, 868 (10th Cir. 1969) (“To hold
otherwise would abuse due process, shock the judicial conscience and effect the
imposition of a cruel and unusual punishment under the eighth amendment.”). We
have also held, though, that a federal prisoner is not constitutionally entitled to credit
against a federal sentence for time served on a state sentence even where the state
court ordered the state sentence be concurrent with the federal sentence. See
Bloomgren v. Belaski, 948 F.2d 683, 691 (10th Cir. 1991).
%

We have not previously addressed whether a state prisoner is constitutionally
entitled to credit against a consecutive state sentence for time served on a federal
sentence later determined to be erroneous. The Eighth Circuit, however, confronted
•* .

this situation in Bagley v. Rogerso;% 5 F.3d 325, 330 (8th Cir. 1993). The court
rejected the prisoner’s claim to credit against the federal sentence:*
In short, the federal Constitution did not require the
State ... to grant {th? petitioner] credit on a state sentence
on account of legal errors made by the federal district court
that had sentenced.him on federal convictions that were
later reversed on appeal. If an injustice has been done, it
has been done by the United States.; hot by the State M...
Id. We conclude this reasoning is persuasive. Custard “owed a debt to two separate
sovereigns, each of which hd[s].a right to.exact'its debt independently of the other.”
Goode v. McCune, 543 F.2d 751,^53 (10th Cir. 1976). And, neither the Due Process
$
-- X-

3

i

i:

JN
/

«►

V
y

Clause, the Eighth Amendment, no? any other constitutional provision requires that
■

..

*

Oklahoma modify its sentence to account for the excessive length of a sentence
imposed in a different jurisdiction* for a different crime. The district court therefore
Correctly dismissed Custard’s petition.
t •

'

In light of this ruling, we need not consider the district court’s rejection of
Oklahoma’s failure-to-exhaust argument.
•^CONCLUSIONS......................
We affirm the judgment of the district court. We deny Custard’ s motion for
appointed counsel, and we deny as moot his motion for expedited ruling.
Entered for the Court
Gregory A. Phillips
Circuit Judge

%
k

I

v

4
%
f

*

CUSTARD V CROW

-Pet. Appendix B

U.S. SUPREME COURT CASE $:

Case’5:19-cv-00540-J Document 73 Filed 06/02/201 Page 1 of 12

{(%

)

i tw*~i

mAr
teJ

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF OKLAHOMA
ROBERT ALLEN CUSTARD,
Petitioner,

)
)
)
)

)

v.
SCOTT CROW,
Respondent.

Case No. CIV-19-540-J

)
)
)
)

ORDER
Currently pending is Respondent’s motion to dismiss Petitioner’s 28 U.S.C. § 2241 petition
(Resp.’s Mot.) [Doc. No. 59]. Petitioner has responded (Pet’s RespO [Doc. No. 63];1 For the
reasons discussed below, Respondent’s motion is GRANTED.2
I.

Relevant Background
Petitioner filed ,a federal writ of habeas corpus challenging the execution of his sentence

(Pet.) [Doc. No. 1]. Liberally construing die Petition and taking judicial notice of court records,
the Court noted the following events:
• March 31,1993 - Petitioner pleaded guilty to kidnapping and possession of a firearm after
a felony conviction in the United States District Court for the District of Colorado, Case
No. 93-cr-0050-WYD, and was sentenced to 360-months imprisonment.
• October 21,1993 - Petitioner was convicted for knowingly concealing stolen property after
a felony conviction in Stephens County, Oklahoma, Case No. CFR-92-209, and was
sentenced to thirty years, “to begin at and from the delivery of [Petitioner] to the Warden
of the Lexington Assessment and Reception Center” and to be served consecutive to his
federal sentence.
• Petitioner began serving his federal sentence first.

t

The Court has considered all of Petitioner’s documents, including [Doc. Nos. 64,71].

2 Citations to the parties’ pleadings will refer to this Court’s CM/ECF pagination.

n 1------

CUSTARD V CROWJ USDC/WDOK
Cd&ti o: 19-CV-00540-J Document 73 Filed 06/02/20 Page 2 of 12

Petitioners
Appendix

• August 10, 2017 - the United States District Court for the District of Colorado granted
Petitioner’s 28 U.S.C. § 2255 petition and vacated his federal sentence under Johnson v.
United States, 135 S. Ct. 2551 (2015).
• October 17, 2017 - Petitioner was resentenced in federal court to 137-months and 120months, concurrently served, and the federal court noted his federal sentences had been
completed.
•

Based on the resentencing, Petitioner’s federal sentences appear to have ended sometime
in October 2003 to August 2004.3

•. October 2017 - Stephens County issued an order directing officials to transport Petitioner
to die Lexington Assessment and Reception Center.
• Oklahoma Department of Corrections (DOC) officials calculate Petitioner’s thirty-year
state sentence as beginning in October 2017.
See [Doc. No. 10].
Based on the foregoing, Petitioner filed a writ of habeas corpus in State court arguing that
because his federal sentences ended in October 2003 (based on Petitioner’s calculation), DOC
officials should calculate his state court sentence from that date. See [Doc. No. 14-2]. The trial
judge denied relief, holding both that Petitioner (1) was not entitled, to state habeas relief because
he “has failed to show that he is entitled to immediate release” and (2) DOC was not obligated to
credit Petitioner’s state court sentence based on time served on a federal sentence, citing Floyd v.
State, 540 P,2d 1195 (Okla. Crim. App. 1975). See id. Petitioner did not timely appeal to the
Oklahoma Court of Criminal Appeals (OCCA) and that court dismissed his appeal accordingly.
[Doc. No. 14-3],4

3 The exact date Petitioner’s federal sentences expired remains unclear.
4 For more history, see [Doc. Nos. 25, 37-38, 65].
2

B

CUSTARD V CR8W J USDC/WDOK

Case 5:19-cv-00540-J Document 73 Filed 06/02/20 Page 3 of 12 Petitioners
Appendix

n.

Petitioner’s Claims
With liberal construction, Petitioner seeks federal habeas relief based on Oklahoma’s

failure to credit him with time spent in federal custody (after his sentence expired), alleging
violations of due process, double jeopardy, and cruel and unusual punishment. See Pet. at 6-12.5
Id.

Respondent’s Motion to Dismiss
Respondent seeks dismissal on two grounds. First, he argues Petitioner did not complete

the state exhaustion process because he did not timely appeal to OCCA and thus his state habeas
petition is unexhausted. See Resp.’s Mot at 4-7. Second, Respondent claims Petitioner fails to
show any federal constitutional right to having his state sentence credited for time spent in federal
custody serving a void federal sentence. See id. at 7-9; see also [Doc. No. 14, at 4-9].6
The Court disagrees with Respondent’s first argument but finds his second argument
persuasive.
A.

Respondent’s Exhaustion Defense

In part, Respondent argues Petitioner did not exhaust his state judicial remedies because
he did not properly appeal the denial of his state habeas petition to the OCCA. See Resp.’ Mot. at
4-7. The Court agrees that “the exhaustion of available ... remedies is a prerequisite for § 2241

5 Petitioner also alleges a violation of the Ninth Amendment, see Pet. at 7, which provides: “The
enumeration in the Constitution, of certain rights, shall not be construed to deny or disparage others
retained by the people.” U:.S. Const amend. IX. However, the Ninth Amendment only protects
those rights not otherwise “enumerated in the Constitution.” Pamisi v. Colorado State Hosp., 992
F.2d 1223, 1993 WL 118860 at *1 (10th Cir. 1993) (brackets omitted). As Petitioner has
enumerated several other constitutional rights, the Court finds his Ninth Amendment claims “are
indisputably meritless.” See id. (finding plaintiff s Ninth Amendment claims meritless where the
Eighth and Fourteenth Amendments protected an inmate from due process violations and cruel
and unusual punishment).
6 Respondent re-urged the arguments made in his previous motion to dismiss. See Resp.’s Mot. at
1.
3

B

CUstard V Crow / USDC/WDOK
Case 5:19-cv-00540-J Document 73 Filed 06/02/20 Page 4 of 12

____________ •’V*

Petitioners
Appendix; B

habeas relief[.]” Garza v. Davis, 596 F.3d 1198,1203 (10th Cir. 2010). However, in Oklahoma,
a writ of habeas corpus is only available to an inmate who can show he would be entitled to
immediate release if the writ is granted. See Ochoa v. Bass, 181 P.3d 727, 730 (Okla. Crim. App.
2008).
Respondent continues to assert that a state writ of habeas corpus was Petitioner’s available
remedy, see [Doc. No. 67, at 2-3], but he also argues that, as of April 2020, Petitioner had 7,928
days remaining to serve on his sentence. See id. at 1. Moreover, Respondent claims DOC officials
cannot even speculate as to whether Petitioner would be entitled to immediate release if his state
sentence was credited for the time he remained in federal custody after his federal sentence expired.
See id. at 3. In other words, despite Petitioner’s beliefs to the contrary, there is no actual evidence
the he would be entitled to immediate release if granted the credits in question. The trial court
agreed, because it listed Petitioner’s inability to prove he would be entitled immediate release as
one ground for denying the writ in state court. See supra at 2? Accordingly, the Court finds that
a writ of habeas corpus was not (and is not) currently available to Petitioner, and thus he was not
required to “complete the process of state court adjudication” in order to exhaust his state court
remedies. Farris v. Although, 698 F. App’x 950, 957-58 (10th Cir. 2017) (discussing whether the
exhaustion requirement can be met when a prisoner files a writ of habeas corpus in state court but
is not entitled to immediate release). As no other remedy appears to be available to Petitioner, see
[Doc. No. 67, at 4], the Court DENIES Respondent’s motion to dismiss on his exhaustion defense.

7 Respondent claims the trial court “[actually” found Petitioner had “failed to show that he is
entitled to release and has failed to support his argument,” as to suggest this means the writ of
habeas corpus was available to Petitioner. [Doc. No. 67, at 4]. But the trial court’s ruling was
clearly based on both elements and the fact that it ultimately reached the merits does not alter the
Court's conclusion.
4

Custard V Crow / USDC/WDOK
Case 5:19-cv-00540tJ Document 73 Filed 06/02/20 Page.5ofl2

B.

Petitioners
Appendix B

Respondent’s Merits Defense

Respondent alternatively argues that Petitioner lacks any federal constitutional rights in
having his state sentence credited for time spent in federal custody after his federal sentence
expired. See supra at 3. On this point, the Court agrees.
1,

Due Process Rights
a.

Federal Due Process

Inmates are often sentenced to two or more consecutive sentences and periodically, as
happened here, an inmate will serve all or some of the first sentence and then that sentence is
vacated or otherwise modified. When that happens, and both sentences are from the same
jurisdiction (either both federal or both state), the inmate is clearly entitled to credit under the
federal constitution. See Goodwinv. Page, 418 F.2d 867, 868 (10th Cir. 1969) (in acase involving
two state sentences, granting petitioner’s request that credit for time spent on a vacated state
sentence be applied to his consecutive state sentence because “To hold otherwise would abuse due
process, shock the judicial conscience and effect the imposition of a cruel and unusual punishment
under the eighth amendment.”); see also Miller v. Cox, 443 F,3d 1019, 1020-21 (4th Cir. 1971)
(holding, in a case involving consecutive sentences from the same jurisdiction, that “the state must
credit the sentences remaining to be served on the valid convictions with the time served under the
voided conviction” and noting “[cjommon sense and fundamental fairness require that under such
circumstances the state should not ignore the period of imprisonment under the invalid sentence
when an appropriate remedy is so readily available”).
However, the Tenth Circuit has never squarely addressed whether the federal constitution
requires the application of credits when, as here, the sentences derive from two separate
jurisdictions. Other circuits have addressed the issue however, and, relying on those cases, the

5

Custatd V Crow / USDC/WDOK
Case 5M9-CV-00540-J Document 73 Filed 06/02/20 Page 6 of 12

Petitioners
Appendix B

Eighth Circuit decided a case on substantially similar facts. The Court finds its reasoning
persuasive.
In Bagley v. Rogerson, 5 F.3d 325 (8th Cir. 1993), the inmate was convicted on federal
charges and after serving thirty-nine months in federal custody, he was transferred to Iowa where
he was convicted on state drug charges. See id at 327. The inmate was then transferred back to
federal custody to serve the remainder of that sentence. See id Thereafter, the inmate’s federal
conviction was reversed on appeal and Iowa lodged a detainer to ensure the inmate’s return to state
custody. See id. The inmate sought credit towards his Iowa sentence for time spent in federal
custody on the vacated federal sentence* and officials refused. See id. After the inmate filed a
state-suit, Iowa officials reversed their position and granted him credit; however, he later sued in
federal court for damages under 42 U.S.C. § 1983 on grounds that the initial refusal violated his
federal due process rights (and resulted in a longer incarceration). The district court denied the
officials’ motion for summary judgment based on qualified immunity and on appeal, the Eighth
Circuit addressed the precise question currently before this Court: “[W]hether as a matter of
federal constitutional law [the inmate] was entitled to receive credit on his [state] sentence for time
served on his vacated federal sentences.” Id. at 329.
The court answered in the negative. In so doing, it examined those cases holding
fundamental fairness required credits to be applied to an existing sentence that would have begun
earlier but for detention on an invalid sentence. See id. (citing, in relevant part, Milter, 443 F.2d
at 1020-21). But the court noted that those cases “generally concerned consecutive sentences
within the same jurisdiction.” Id. It then examined cases from the First, Second, Fifth, and
Eleventh Circuits which “found no due-process violation,from a denial of federal credit for time
served on a vacated state sentence, even when service of the state sentence delayed the start of a

6

Custard V Crow / USDC/WDOK

Case 5:19-cv-00540-J Document 73 Filed 06/02/20 Page 7 of 12

Petitioners
Appendix B

federal sentence.” Id at 330 (citing Meagher v. Clark, 943 P.2d 1277 (11th Cir. 1991); Pinaudv.
James, 851 F.2d 27 (2d Cir. 1988); Scott v. United States, 434 F.2d 11 (5th Cir. 1970); Green v.
United States, 334F.2d 733 (1st Cir. 1964)). Applying those cases, the court held:
In short, the federal Constitution did not require the State of Iowa, or the two prison
officials whom Bagley has named as defendants in this action, to grant Bagley
credit on a state sentence on account of legal errors made by the federal district
court that had sentenced him on federal convictions that were later reversed on
appeal. If an injustice has been done, it has been .done by the United States, not by
die State of Iowa.
Id
This Court finds the Eighth Circuit’s reasoning persuasive. There is no doubt that
Petitioner served too many years in federal custody but responsibility for that lays in his federal
sentencing court. Oklahoma played no part in that injustice and it has “a right to exact its debt
independently of the [federal sentencing court] ."Goode v. .McCwe, 543 F.2d 751,753 (10th Cir.
1976) (not addressing die application of credits for time spent on a vacated sentence but holding
inmate was not entitled to.credit on his federal sentence for time spent serving his state sentence,
even though both sentences derived from the same bank robbery, because he “owed a debt to two
separate sovereigns, each of which had a right to exact its debt independently of the other”).
Accordingly, the Court finds Petitioner lacks any due process rights, derived from the federal
constitution, in having Oklahoma credit his state sentence for time spent in federal custody serving
a void sentence.
b.

State Created Liberty Interest

The Court must also examine whether Petitioner has a State-created liberty interest in
having Oklahoma credit his state sentence for time spent in serving a void federal sentence. It
concludes that he does not.

7

Custard V Crow / USDC/WDOK

Case 5:19-cv-00540-J Document 73 Filed 06/02/20 Page 8 of 12

Petitioners
Appendix B

A “state-created interest is not protected by the procedural component of the Due Process
Clause unless the interest is an entitlement - that is, unless the asserted right to property or liberty
is mandated by state law when specified substantive predicates exist.” Elliott v. Martinez, 675
F.3d 1241,1244 (10th Cir. 2012); see also Sutton v. Mikesell,

F. App’x , 2020 WL 1845283

at *6 (10th Cir. 2020) (emphasizing Elliott 's holding that the right must be “mandated" by state
law). Petitioner relies on Okla. Stat. tit. 22, § 976 and Floyd, see Pet. at 5 & Pet’s Resp. at 5,2021, but the Court finds no mandated entitlement in either.
For example, the statute Petitioner relies on states, in relevant part, that “[i]f the defendant
has been conv icted of two or more offenses, before judgment on either, the judgment may be that
the imprisonment upon any one may commence at the expiration of the imprisonment upon any
other of the offenses.” Okla. Stat. tit. 22, § 976. This statute does not address the application of
credits when the first sentence is improperly prolonged, and Oklahoma officials began Petitioner’s
|\jNEstate sentence when federal authorities released himfrom his fecjeraj im^isonrr^nt.^^e .swpraat^
2. In short, the Court finds that § 976 does not mandate Oklahoma officials grantJPetitioner credit
1 ""

on his Oklahoma sentence for time spent (improperly) in federal custody. '7Mtr flry

ZamA.

Examining Floyd, the Court finds the same lack of entitlement. In that case, the petitioner
was convicted in two separate cases in the District Court of Garfield County and after serving time
on the first conviction, it was vacated. See Floyd, 540 P.2d at 1196. He sought habeas relief in
the OCCA, arguing that time spent on the reversed conviction should be applied towards his
remaining sentence. The court, adopting the reasoning in Miller, 443 F.2d at 1019, agreed. See
id. at 1197-98. But Floyd included two judgments from the same jurisdiction, as did Miller. See
supra at 5. The OCCA has never addressed whether Floyd would be applicable in this situation,

”8

Custard V Crow / USDC/WDOK

Case 5:19-cv-00540-J Document 73 Filed 06/02/20 Page 9 of 12 Petitioners
Appendix

where the convictions arise from different jurisdictions, so this Court must “endeavor to predict
how that hjgh court would rule.” Johnson v. Riddle, 305 F.3d 1107,1118 (10th Cir. 2002).
“Where a state’s highest court has not addressed an issue of law, a starting point.,, is the
decisions of the state’s intermediate court of appeals and those decisions are ‘not to be disregarded
by a federal court unless it is convinced by other persuasive data that the highest court of the state
would decide.otherwise.’” Amparanv. Lake Powell Car Rental Co., 882 F,3d 943, 947-48 (10th
Cir. 2018) (citation omitted). Thereafter, the federal court, is ‘“free to consider all resources
available, including__ other state courts and federal courts, in addition to the general weight and
trend of authority.’” Stuart v. Colorado Interstate Gas Co., 271 F.3d 1221,1228 (10th Cir. 2001).
In its analysis, the Court should be “‘generally reticent to expand state law without clear guidance
from the state’s highest court’ for it is not a federal court’s place to ‘expand state law beyond the
bounds set by the highest court of the state.’” Amparan, 882 F.3d at 948 (citation, internal ellipsis,
and internal brackets omitted).
Here, the Court finds no OCCA authority on the precise issue before this Court and
Oklahoma’s intermediate appellate court does not rule on criminal matters. See, e.g„ Lockett v.
Evans, 377 P.3d 1254 (Okla. 2018) (“In Oklahoma, we determine the courts having, authority to
issue [decision] in criminal matters are limited to the district courts and the Oklahoma Court of
Criminal Appeals.”). However, Petitioner’s trial judge did issue an opinion on Floyd’s reach,
holding:
In order to rule in Petitioner’s favor, this Court would have to expand the holdings
in the cases provided by Petitioner, Floyd v. State, 540 P.2d 1195 ([Okla. Grim.
App.] 1975), and Foster v. Booher, 296 F.3d 947 (10th Cir. 2002).8 Under the
holdings in these cases if Petitioner’s vacated sentence had occurred while he was
8 In Foster, the Tenth Circuit applied Floyd to find that “under Oklahoma law, if [petitioner] is
successful in voiding his McClain County sentence, the time served under that sentence will be
credited towards his Cleveland County sentence.” Foster, 296 F.3d at 951.
9

B

Custard V Crow / USDC/WDOK
Petitioners
Case 5:19-cv-00540-J Document 73 Filed 06/02/20 Page 10 of 12 Appendix B

serving time in Oklahoma for an Oklahoma case, he would be credited with the
time on the consecutive sentence. However, Petitioner was in Colorado serving a
federal sentence at the time he claims his federal sentence was vacated. Petitioner
has presented no authority giving Oklahoma state prison administrators the
discretion to credit banked time from his federal case.
[Doc. No. 14-2].
Mindful that it is not this Court’s role to expand Oklahoma law, and considering the trial
court’s interpretation of F/oyrf and the federal courts who have addressed the issue, see supra at 67, the Court predicts that the OCCA would hold Floyd does not mandate that DOC officials grant
Petitioner credit to his Oklahoma sentence for time spent in federal custody serving a void federal
sentence. Accordingly, the Court finds Petitioner fails to establish a state-created liberty interest
in the relevant credits.
2.

Double Jeopardy Violation

The Double Jeopardy Clause protects against “(1) ‘a second prosecution for the same
offense after acquittal,’ (2) ‘a second prosecution for the same offense after conviction,’ and (3)
‘multiple punishments for the same offense.’” Warnickv. Booher, 425 F.3d 842, 847 (10th Cir.
2005) (citation omitted). Clearly, neither the first nor second element applies here; and, Petitioner
was convicted for different offenses in the state and federal courts, so the third element is also
inapplicable. See supra at 1. Accordingly, the Court finds no double jeopardy violation in the
State’s decision not to credit Petitioner’s state sentence for time spent in federal custody serving a
voided federal sentence.
3.

Cruel and Unusual Punishment

“Imprisonment beyond one’s term can constitute cruel and unusual punishment for
purposes of the Eighth Amendment.” Mitchell v. New Mexico Dep ‘t ofCorr996 F.2d 311,1993
WL 191810 at *3 (10th Cir. 1993). However, Petitioner must first show an entitlement to release,

10

Custard V Crow / USDC/WDOK
____________
Case 5:19-cv-00540-J Document 73 Filed 06/02/20 Page 11 of 12 Petitioners

i.e., an underlying deprivation of his liberty. See Waynewoodv. Nelson, No. 15-CV-00946-MEH,
2016 WL 54122, at *1 (D. Colo. Jan. 5,2016); see also Haygood v. Younger, 769 F.2d 1350,1354
(9th Cir. 1985) (“Detention beyond the termination of a sentence could constitute cruel and unusual
punishment if it is the result of ‘deliberate indifference’ to the prisoner’s liberty interest^”).
Petitioner has not done so. That is, Petitioner lacks a liberty interest in having the State credit his
state sentence for time spent serving a voided federal sentence, see supra at 5-10, and thus he
cannot show he has been imprisoned beyond the terms of his confinement. So. the Court finds no
cruel and unusual punishment in Petitioner’s circumstances.
IV.

Conclusion
For the reasons discussed above, the Court DENIES Respondent’s motion to dismiss for

nonexhaustion but GRANTS Respondent’s motion to dismiss [Doc. No. 59] on the merits and
DENIES Petitioner’s Petition [Doc, No. 1] for habeas relief. Petitioner’s motion asking the Court
to consider various arguments [Doc. No. 71] is GRANTED and the Court considered such
arguments herein. Petitioner’s other pending motions [Doc. Nos. 46,69] are DENIED as moot.
Finally, pursuant to Rule 11(a) of the Rules Governing Section 2254 Cases, the Court must
issue or deny a certificate of appealability (COA) when it enters a final order, adverse to a
petitioner. This requirement also applies when a state habeas petitioner is proceeding under §
2241. See Montez v. McKinna, 208 F.3d 862, 869 (10th Cir. 2000). A COA may issue only if the
petitioner “has made a substantial showing of the denial of a constitutional right.” 28 U.S.C. §
2253(c)(2). “A petitioner satisfies this standard by demonstrating that jurists of reason could
disagree with the district court’s resolution of his constitutional claims or that jurists could.
conclude the issues presented are adequate to deserve encouragement to proceed further.” MlUerEl v. Cockrell, 537 U.S. 322,327 (2003).

II

Petitioners Appendix B
Custard V Crow / USDC/WpOK

CtotS-l 1 'CV'Ctisrvp-r//jocL -*3/ Fad ,&h/^ / /fyv/2, >{/z
irkfo,, fufhoMA

frjmtftJIt) J)ai/tjh/hrtiVtete

A f/ti'd

iwJ IhltAtAJvul
Jhfflfo&lMsf ttfoxll&LcitfS

AtS Jitfl

SfitAfJhi/Mg

■/£&**(

/flofi^y<tji./ Jii&KS&Lc/ &mq£& M i^kGojif^ fki-tibcricA
A&susedd77fr$4tfitob tyUfiteWM^/irnTh&Mtrftids
Tjfr&Q tM hkJrntdfiJ is MtfL/fHiAidikfotfS Asina/M. / COi ItrfkfUcfoA*

AJl/wm CfodjMM JfaiL $t
trLScMteJ nu Z^tyOt JZfaU&u

trf

tAJZiOk: /ASM* ZfiJy *-

Submitted On Petition For, Writ Of Certiorari @\APPENDIX B.

'l&is

• \A^) 6f-

*4 t

%u

it&wAliiiij/VS'TAfiJ
-72-

Jimricxl^ s fh> cfz,

Additional material
from this filing is
available in the
Clerk's Office.

